APPENDIX "A"

Case: 20-12986

un

Date Filed: 08/27/2020

Page: 1 of 1

THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12986-G
In re: DONOVAN G. DAVIS, JR.,
Petitioner.
On Petition for a Writ of Mandamus to the United States
District Court for the Middle District of Florida
BEFORE: ROSENBAUM and BRASHER, Circuit Judges.
BY THE COURT:
Before the Court is Petitioner Donovan G. Davis, Jr.’s petition for a writ of mandamus,
which asks this Court to issue a writ of mandamus directing the district court judge to transfer the
motion to recuse the district court judge to a different judge. The petitioner filed a motion to recuse
the district court judge on June 22, 2020. On June 24, 2020, the district court judge entered a
thorough order denying the petitioner’s recusal motion. On July 1, 2020, the petitioner filed a
motion for reconsideration of that order, which the district court judge denied on July 6, 2020.
We ordinarily review a district court judge’s decision not to recuse for abuse of discretion.
In re Moody, 755 F.3d 891, 898 (11th Cir. 2014). Because the petitioner seeks a writ of mandamus,
however, our review of the district court judge’s failure to recuse is even more stringent. Id. After
careful review of the record, the petitioner’s petition for a writ of mandamus is DENIED because
the petitioner has not shown that his right to this “drastic remedy” is “clear and indisputable.”
Jackson v. Motel 6Multipurpose, Inc., 130 F.3d 999, 1004 (11th Cir. 1997).

APPENDIX "B"

Case 6:20-cv-01037-CEM-DCI

Document 8

Filed 06/24/2020

Page 1 of 3 PagelD 284

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
DONOVAN G. DAVIS, JR.,
Petitioner,
Case No: 6:20-cv-1037-Orl-41DCI
(6:14-cr-43-OrI-41DCI)

v.
UNITED STATES OF AMERICA.,
Respondent.
ORDER
*

THIS CAUSE is before the Court on Petitioner's Application Under 28 U.S.C. § 141 for
the Recusal of the Honorable Carlos E. Mendoza ("Motion for Recusal," Doc. 2) and Motion for
Leave to Expand Page Limit (Doc. 7). In conjunction with the Motion for Recusal, Petitioner filed
his own Affidavit (Doc. 3); a Certificate of Good Faith signed by attorney, Brain D. Horwitz (Doc.
4); and the Second Declaration of Frank L. Amodeo (Doc. 5).
According to Petitioner, after the trial in the underlying criminal case, he sought "the
assistance of a trained legal assistant, Frank Amodeo, in preparing a Rule 33 motion." (Doc. 2 at
3). Petitioner asserts that the undersigned discovered .that Amodeo was a disbarred attorney and
had a "distaste" for Amodeo, which resulted in prejudicial rulings. {Id. at 3-4). In particular,
Petitioner states as follows:
Judge Mendoza surmised that Mr. Amodeo put together
(presumably false) affidavits that states both the government's key
witness (Damien Bromfield) committed perjury, and that the
government knew of Bromfield's perjury and allowed it. (Id.). Judge
Mendoza must have relied upon extrajudicial information—since
nothing in the record indicates Mr. Amodeo manufactured or
gathered the affidavits.

Page 1 of3

Case 6:20-cv-01037-CEM-DCI

Document 8

Filed 06/24/2020

Page 2 of 3 PagelD 285

{Id. at 4). Petitioner continues that the undersigned "used the privately-gathered, off-record
information to create a story that Mr. Amodeo influenced the affiants, which Judge Mendoza
imported into Mr. Davis's case." {Id. at 5).
A district judge must disqualify himself "in any proceeding in which his impartiality might
reasonably be questioned,” 28 U.S.C. § 455(a), or “[wjhere he has a personal bias or prejudice
concerning a party . . . ." 28 U.S.C. § 455(b)(1). The test “is whether an objective, disinterested,
lay observer fully informed of the facts underlying the grounds on which recusal was sought would
entertain a significant doubt about the judge’s impartiality.” United States v. Patti, 337 F.3d 1317,
1321 (11th Cir. 2003). There must be a showing that the bias was personal, not judicial in nature.
United States v. Archbold-Newball, 554 F.2d 665, 682 (5th Cir. 1977). “[Jjudicial rulings alone
almost never constitute a valid basis for a bias or partiality motion.” Liteky v. United States, 510
U.S. 540, 555 (1990).
In the present case, Petitioner has not established any source of extrajudicial bias or shown
that there was pervasive bias that prejudiced him. Petitioner's allegations of bias are based on
rulings of the undersigned unfavorable to him, which were clearly made within the context of
judicial proceedings. In fact, on direct appeal of Petitioner's criminal conviction, the Eleventh
Circuit Court of Appeals affirmed the Court's denial of a prior recusal motion filed by Petitioner,
which alleged bias because Amodeo was involved in the case.1 The Eleventh Circuit Court of
Appeals determined as follows:
Here, Davis has not identified any source of extrajudicial
bias or shown that there was pervasive bias that prejudiced him. See
United States v. Bailey, 175 F.3d 966, 968 (11th Cir. 1999). While
the district court’s December 21,2016, denial of his amended Rule
33 motion indicated a distaste for the filings of Amodeo, the prisoner

1 Petitioner filed a Motion for Recusal of the undersigned on April 12, 2017, which the
Court denied on April 17, 2017. (Criminal Case 6:14-cr-43-Orl-41DCI, Doc. Nos. 295, 296).

Page 2 of 3

Case 6:20-cv-01037-CEM-DCI

Document 8

Filed 06/24/2020

Page 3 of 3 PagelD 286

who prepared the motion, that’s not enough for an objective,
disinterested lay observer to entertain a significant doubt about the
judge’s impartiality. See Patti, 337 F.3d at 1321. As explained
above, there were good alternative reasons for the court to deny the
motion, and adverse rulings “alone almost never constitute a valid
basis for a bias or partiality motion.” Liteky v. United States, 510
U.S. 540, 555 (1994).
(Criminal Case Doc. 407 at 40-41). As such, Petitioner's allegations are legally insufficient to
support a motion for disqualification.
Therefore, it is ORDERED and ADJUDGED as follows:
1. Petitioner's Application Under 28 U.S.C. § 141 for the Recusal of the Honorable
Carlos E. Mendoza ("Motion for Recusal," Doc. 2) is DENIED.
2. Petitioner's Motion for Leave to Expand Page Limit (Doc. 7) is GRANTED in that
Petitioner will be permitted to proceed with the Motion to Vacate, Set Aside, or
Correct Sentence (Doc. 1) as filed.
DONE and ORDERED in Orlando, Florida on June 24, 2020.

fjbrd-i
.

Copies furnished to:
Unrepresented Party

Page 3 of 3

CARLOS E. MENDOZA I
UNITED STATES DISTRICT JUDfE

APPENDIX "C"

Case: 20-12986

Date Filed: 09/25/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12986-G
In re: DONOVAN G. DAVIS, JR.,
Petitioner.
On Petition for a Writ of Mandamus to the United States
District Court for the Middle District of Florida
BEFORE: ROSENBAUM and BRASHER, Circuit Judges.
BY THE COURT:
Petitioner’s “Motion for Reconsideration of Denial of Petition for Writ of Mandamus” is
DENTED.

APPENDIX "D"

i

<

1

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
Donovan Davis, Jr • >
Movant,
v.

Case No.

United States of America,
Respondent.

APPLICATION UNDER 28 U.S.C. § 144 FOR THE
RECUSAL OF THE HONORABLE CARLOS E. MENDOZA
Donovan Davis, Jr. seeks the disqualification of The Honorable Carlos E.
Mendoza from any proceeding involving Mr. Davis; particularly Mr. Davis's motion
submitted under 28 U.S.C. § 2255. Mr. Davis invokes 28 U.S.C. § 144, since Judge
Mendoza's actions indicate that he has an actual prejudice against Mr. Davis. A
prejudice that not only arose from extrajudicial sources, but also caused Judge
Mendoza to actively seek information from extrajudicial sources.
1.

At its core,

Judge Mendoza has a prejudice against individuals that

believe they deserve wealth without what Judge Mendoza thinks was sufficient
effort1.

2.

Whenever Judge Mendoza perceives an individual as undeserving, Judge

Mendoza permits his prejudice to affect his judicial judgment. (See Fn.l ante).
/I Judge Mendoza expressed this prejudice in the sentencing hearing of alleged co-conspirator Damien
Bromfield. .
r
"And what makes it particularly troubling is it's bad enough that
all of you, as may be typical in your generation, believe that life
is about getting on an elevator and going to the top floor
immediately without any work in between. That seems to be normal now
among the younger generation. Why can't I be at the top floor
immediately upon graduating from high school or when I start?'"
United States v. Damien Bromfield, No. 6:13-cr-268-CEM-GJK, Doc. 68 at 49 (M.D. Fla.)(Mendoza, J.).

3.

Judge Mendoza disliked Mr. Davis because Judge Mendoza believes Mr.

Davis acted wealthier than a high school graduate should. (Fnt. 1 ante). Judge
Mendoza believed Mr. Davis attained his (image of) success by freeloading off
his parents as well as from the alleged fraudulent conduct. (Crim. Doc. 156 at
2)2("the remaining funds Defendant claims to have been 'his' were those invested
by his family.")(internal quotations in the original)).
4. Prior to Mr. Davis's trial, Judge Mendoza had concluded Mr. Davis was
guilty. (Crim. Doc. 351 at 58)("I do think you stole the money. I think that the
fact that you and your co-defendants were paying each other or paying yourselves
$15,000 a month and having as much as $50,000 in monthly expenses ... you made a-deliberate decision with your co-defendants that you were going to defraud these
people.")(Mendoza, J.).
5. Prior to sentencing, July 29, 2015, Mr. Davis fired one attorney (Crim.
Doc. 165) and on the same day hired another attorney. (Crim. Doc. 163). On July
30, 2015, Judge Mendoza scheduled a hearing for July 31, 2015. (Crim. Doc. 167).
Judge Mendoza surmised Mr. Davis was acting dilatory and trying to game the
system.

(Crim.

Doc.

321 at 9-10).

This,

even though Mr.

Davis was already

incarcerated and new counsel wanted to push back the sentencing only 30 days.
Judge Mendoza's conclusions concerning Mr. Davis's purpose for changing counsel
are not supported by the record.
6. After the conviction, Judge Mendoza believed that Mr. Davis continued
the same self-centered, deceptive behavior. (Crim. Doc. 275 at 7). Judge Mendoza
believed Mr. Davis was manipulating the process by changing representation. (Cf.
Crim. Doc. 321 at 9-10)("I mean, he [Donovan Davis, Jr.] has a right to choose
/2 Citations in the form of "(Crim. Doc. #)" refers to the numbered entries on the district court's
docket In United States v. Donovan Davis, Jr., No. 6:14-cr-43-CEM-DCI (M.D. Fla.).

2

his own counsel, but he did not have the right to demand that any particular
lawyer come in here • • • • ")(Mendoza, J.).
7. While awaiting his appeal, Mr. Davis learned that his (alleged) co­
conspirator admitted to lying at trial and that the lying was at the behest of
the government. (Crim. Docs. 236-3, 236-6, 236-8, 236-9).
8. Mr. Davis sought the assistance of a trained legal assistant, Frank
Amodeo, in preparing a Rule 33 motion. A process that the district court clerk
frequently recommends. (Exhibit "1”).
9. Judge Mendoza discovered (by some means other than the record) that the
prison's law clerk, Frank Amodeo, was a disbarred attorney. Judge Mendoza had a
"distaste” for Mr. Amodeo's writing style. (Crim. Doc. 407 at 39). Judge Mendoza
implied that Mr. Amodeo, an unlicensed attorney, felon should not be practicing
law. (Crim. Doc. 275 at 2); (Id. at 9)("This attempt by a jailhouse lawyer to
gather and coordinate affidavits from inmates in order to help another inmate
is, to say the least, suspect.”)(emphasis added).
10. Judge Mendoza's distaste for Mr. Amodeo must stem from Judge Mendoza's
inherent prejudice because Mr. Amodeo is alien to the criminal case, and there
is nothing in the record to show that Mr. Amodeo actually assisted with the Rule
33 (see Crim. Doc. 236, 241)(submitted by Thomas Sadaka, Esquire).
11. Judge Mendoza publicly accused Mr. Amodeo of criminal conduct. A
disbarred lawyer openly practicing law. (Crim. Doc. 275 at 2).

3

12. Judge Mendoza complained that Mr. Davis was working with Mr. Amodeo to
concoct a plan to deceive the court. (Crim. Doc. 275 at 9).
13.
manner

Judge Mendoza's prejudice flared causing Judge Mendoza to act in a
that a judge should not: Judge Mendoza actively pursued non-judicial

sources of information and then used that surreptitiously obtained information
to make judicial decisions.

(Crim. Doc. 275 at 9)(Amodeo attempts "gather and

coordinate affidavits • • • in order to help another inmate.").
14.
Amodeo.

Judge Mendoza
Judge

Mendoza

has
used

never met,
an

spoken to,

unverified,

or communicated with Mr.

off-record

website

to

provide

information to disparage Mr. Amodeo. (Second Declaration of Frank Amodeo).
15. From the extrajudicial sources, Judge Mendoza learned that the author
of the pleading was not a lawyer. (Crim. Doc. 213).
16.

From that premise,

Judge Mendoza crafted a scenario concerning Mr.

Amodeo's assistance of Mr. Davis. Judge Mendoza's theory---- he decided that Mr.
Amodeo manufactured evidence to help Mr. Davis. (Crim. Doc. 275 at 6-8). Judge
Mendoza surmised that Mr. Amodeo put together (presumably false) affidavits that
stated both the government's key witness (Damien Bromfield) committed perjury,
and that the government knew of Bromfield's perjury and allowed it. (Id.). Judge
Mendoza must have relied upon extrajudicial information---- since nothing in the
record indicates Mr. Amodeo manufactured or gathered the affidavits.
17. Judge Mendoza used his theory of Amodeo.'s plan to strike Mr. Davis's
pro se Rule 33 motion. (Crim. Doc. 275 at 8-9)("attempt by a jailhouse lawyer
• • • is, to say the least, suspect.")

4

18. After striking the motion authored by Mr. Amodeo, Judge Mendoza told
two attorneys that he was going to criticize the stricken pleading's author and
implied that if they adopted the author's language the two attorneys would be
encompassed in the criticism. (Crim. Doc. 291 at 4).

19. Thereafter, Judge Mendoza's prejudice caused him to publicly disclose
that Mr. Amodeo engaged in the unauthorized practice of law, even though it was
irrelevant to Mr. Davis's case. (Crim. Doc. 275 at 2).

20. More importantly, Judge Mendoza used the privately-gathered, off-record
information to create a story that Mr. Amodeo influenced the affiants, which
Judge Mendoza imported into Mr. Davis's case. Then he used the off-record theory
to deny both counseled motions and unrelated pro se motions. (See Crim. Docs.
275, 296, 399).
21. Judge

Mendoza

gave

more

credence

to

his

off-record

private

investigation than he gave to adversarilly-tested information provided by the
Internal Revenue Service. Nothing in the record shows that Mr. Amodeo had any
contact with Thiago Correa.

(Crim. Doc. 236-4). Indeed, the IRS produced the

original report about Mr. Correa.

(Id.) Yet, Judge Mendoza lumped the IRS's

report with the other affidavits that he presumed were prepared by Mr. Amodeo
and discounted all of them as untrustworthy.

22. Judge Mendoza found that Mr. Amodeo pursued the witnesses who provided
the affidavits for the Rule 33 motion. (Crim. Doc. 275 at 9). Yet, the record
does

not

show that

affidavits.

(Crim.

the witnesses

Docs.

236—3,

knew Mr.

236—6,

Amodeo

prior to preparing the

236-8, 236—9). Judge Mendoza did not

disclose the extrajudicial source upon which his finding was based.

23. Similarly, Judge Mendoza implied that Mr. Amodeo assisted in preparing
the affidavits.

(Crim. Doc. 275 at 2, 3, 9). A fact Judge Mendoza must have
5

learned from extrajudicial private investigation because the evidentiary record
does not show Mr. Amodeo assisted with the affidavits. (§ 144 Aff. at 1-3)^.
24. Judge Mendoza implies that Mr. Amodeo coached the affiants. (Crim. Doc.
275 at 9). Yet, the record reveals that neither Mr. Correa nor the government
ever mentioned Mr. Correa having any contact with Mr. Amodeo. (Crim. Docs. 2363, 236-4).
25. Furthermore, in the court record none of the witnesses stated that Mr.
Amodeo prepared either their statement or their affidavit. (Crim. Docs. 236-3,
236-6, 236-8, 236-9). Indicating once more, Judge Mendoza's opinion must have
been based on the information gathered from outside the judicial proceedings.
(§ 144 Aff. at 2, 4, 5, 7).
26.

Judge Mendoza's personal prejudice appears when he instructs (and

approves of) the magistrate's order that any Davis pleading that, like the 41(g)
motion (Crim. Doc. 330), even mentions Mr. Amodeo's name would be stricken.
(Crim. Doc. 337 at 2)(Amodeo prepared petition stands to be stricken). Unlike
the pleadings references in the order, Crim. Docs. 213 and 215, Mr. Amodeo's
purported signature did not appear on the 41(g) motion. Mr. Amodeo had nothing
to do with preparation of the motion. This "distaste" for Mr. Amodeo could only
have sprung from extrajudicial sources, since---- as mentioned---- the record is
sans any activity by Mr. Ajnodeo except for the stricken pleading. (§ 144 Aff. at
2, 4, 7). And Judge Mendoza's Amodeo-bias spills over unto Mr. Davis.
27. Further support of Judge Mendoza's actual prejudice and use of non­
judicial evidence can be gleaned from neither the government nor defense counsel
ever stating that Mr. Amodeo participated in developing the Rule 33 motions, the
/3 Citations In the form of ""(§ 144 Aff. #)" refers to the AFFIDAVIT OF DONOVAN DAVIS, JR. IN
SUPPORT OF MR. DAVIS'S 28 U.S.C. § 144 MOTION TO RECUSE.

6

affidavits, the evidence, or anything. Therefore, Judge Mendoza either learned
of those facts from an off-record source, or from speculation sparked by seeing
Mr. Amodeo's name and learning from an extrajudicial source that Mr. Amodeo was
a disbarred attorney. (§ 144 Aff. at 3, 6-7).
28. Finally, it is noteworthy that the record shows Mr. Davis was the only
person to mention that Mr. Amodeo prepared the stricken motion, no evidence
exists that Mr. Amodeo signed the pleading. (Crim. Doc. 245 at 5)(USA's only
mentions Amodeo purportedly prepared). No government representative, including
the court,

has ever spoken to Mr. Amodeo concerning this litigation, the

affidavits, or Mr. Amodeo's involvement therewith. (Second Declaration of Frank
Amodeo). Since Judge Mendoza finds Mr. Davis to be an inveterate fraudster and
liar (Crim. Doc. 275 at 7)(”it is not lost on this court that Defendant's
underlying conviction involved an unlawful and fraudulent scheme"). Why would
Judge Mendoza have thought Mr. Davis was truthful about Mr. Amodeo's signature
being in the pleading? Judge Mendoza believed nothing Mr. Davis wrote. (Id.)
Therefore, Judge Mendoza must have used an extrajudicial source to confirm Mr.
Amodeo's involvement. On this record no proof supports that conclusion. If, as
Judge Mendoza found, Mr. Davis was manufacturing this controversy, .then how,
without extrajudicial sources, did Judge Mendoza conclude that Mr. Davis did not
manufacture Mr. Amodeo's signature.
CONCLUSION
Mr. Davis respectfully requests that Judge Mendoza recuse himself from any
proceedings involving Mr. Davis. Alternatively, this court should disqualify
Judge

Mendoza under 28 U.S.C.

prejudice and his

§ 144 because of Judge Mendoza's

personal

tendency to use extrajudicial sources to make decisions

concerning Mr. Davis.
7

Respectfully submitted by Donovan Davis, Jr. on this June

, 2020.

Dphovan Davis,—
Reg. No. 60439H)18
Federal Correctional Complex (Low)
P.O. Box 1031
Unit B-3
Coleman, FL
33521

CERTIFICATE OF SERVICE
This

document

was

delivered in a properly addressed,

postage-prepaid

envelope to the prison mailing authorities on the same day as signed.
A copy of this document was sent via U.S. mail to Brian Horwitz, Esquire.
B&fiovan Davis,
VERIFICATION
Under the penalty of perjury as authorized in 28 U.S.C. § 1746, I declare
that all factual allegations and factual statements contained in this document
is true and correct to the best of my knowledge.
D^no'van Davis ,/^JrT

8

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
Donovan Davis, Jr • »
Movant,
v.

Case No.

United States of America,
Respondent.

AFFIDAVIT OF DONOVAN DAVIS, JR. IN SUPPORT OF
MR. DAVIS'S 28 U.S.C. § 144 MOTION TO RECUSE
My name is Donovan Davis, Jr. I am currently incarcerated in the Federal
Correctional Complex (Low) in Coleman, FL. 33521. I am over 18 years of age and
of sound mind.
This declaration is made for the purpose of supporting a petition to recuse
United States District Judge Carlos E. Mendoza from presiding over any of my
proceedings, especially my 28 U.S.C. § 2255 motion.
All of the statements made in this affidavit are made from my personal
knowledge or events which I witnessed.
I. I was unaware Amodeo prepared the affidavits.
Judge Mendoza found that Frank L. Amodeo prepared the affidavits, which
were attached to the Rule 33 motion that identified Mr. Amodeo as the author,
and that Judge Mendoza struck from the record.
The stricken motion was filed in United States v. Davis, No. 6:14-cr-43CEM-DCI (M.D. Fla.) at docket entry 212. Judge Mendoza struck the motion at Doc.
213. Judge Mendoza made the following comments about the affidavits:

1. "It is worth noting that the three Defense Affidavits
submitted by Amodeo are prepared in the same font,
share precisely the same format, and are dated November
10, 2015." (Crim. Doc. 275 at 3).1
2. "Further, as the United States aptly points out, the
sworn statement of Colaprete, Easter, and Grocoff were
attached to the Stricken Motion, which was authored by
Amodeo-----a convicted felon, fellow prison inmate, and
serial filer." (Id. at 6).
3. "Moreover, as previously stated, three of the sworn
statements were in the same font, format, and executed
on the exact same date. These circumstances indicate a
coordinated effort by those involved to manufacture a
controversy." (Id. at 7).
4. "The Defense Affidavits are contrived and rudimentary
in their attempt to manufacture circumstances that
simply do not exist." (Id. at 8).
5. "This attempt by a jailhouse lawyer to gather and
coordinate affidavits from inmates in order to help
another inmate, is, to say the least, suspect." (Id. at
9).
I was unaware that Mr. Amodeo had prepared the affidavits or filed them. I
thought the affidavits were based on the witnesses' written statements, which
were

given

to

an

inmate who made his

prison

living

("hustle")

typing up

documents for other people. Except for Judge Mendoza's findings, I believed that
Mr. Amodeo did not know how to type and I understand he never used a typewriter
while in Coleman (Low).
Also,

I, believed that Mr. Amodeo did not know,

or even speak to, the

affiants until months after the affidavits had been prepared, and vetted by
GrayRobinson, P.A. I can find no mention within the record that indicates Mr.
Amodeo prepared or presented the affidavits. That is, neither the government,
nor a third party, nor the witnesses stated that Mr. Amodeo coached, drafted,
typed, or submitted the affidavits.
/l Citations in the fora of "(Crim. Doc. #)" refers to the numbered entries on the district court's
docket in United States v. Donovan Davis, Jr., No. 6:14-cr-43-CEM-DCI (M.D. Fla.).

2

Hence, in making his findings, Judge Mendoza
s must have had access to and
relied upon information obtained from outside the judicial
proceedings.
II. I was unaware the affiants were ever in the
same prison.
Judge Mendoza found the four affiants
statements were incredible, Judge
Mendoza predicated that
finding on the location of the affiants:
AH four individuals who
Colaprete, Donald Easter, submitted affidavits-----Matthew
Ronald Grocoff, and Thiago
Correa (the "Affiants")___ are
f ... . ----currently serving prison
sentences at the same facility
as Defendant • • • • "
(Id. at 2)(emphasis added).
I was not aware that Thiago Correa

was at the Federal Correctional Complex

(Low), nor was I aware that he was
simultaneously at the same facility as all
the others. The
government never stated—-at least that I
am aware of---- that
Mr. Correa was at the same facility
as me or any of the other affiants,
Once

more

Judge

Mendoza

extrajudicial source in order to

must

have

gathered

information

from

an

support his ruling. Conceivably, in order to

support the outcome he
uneducated

blacks

wanted, Judge Mendoza's prejudice against young wealthy,
caused him to search information
sources other than the

parties.
III. I was unaware that Amodeo
was engaged in the unauthorized practice of law
or made a series of filings on my behalf.
Judge Mendoza states that:

luthoS8 boyf "°„tloi”L'tV
because they wereL
inmate irf:rrn
m federal custody-----Frank

Amnja
u
laZy

WaS engagin8 in the unauthorized practice

(Id. at 2).
I was unaware that Mr. Amodeo filed
a series of motions or that Mr. Amodeo
was engaged "in the unauthorized practice of law."

3

The government never stated in any pleading that Mr. Amodeo was engaged in
the unauthorized practice of law. To the contrary, ask any prison staff member a
question and they will tell you go see the law clerk, who is Mr. Amodeo. Thus,
Judge Mendoza must have learned something about Mr. Amodeo's practices from a
source outside the proceedings.
Plus, I did not know that Mr. Amodeo authored a series of motions. After
Judge Mendoza struck the motion Mr. Amodeo helped me prepare, Mr. Amodeo told me
to go to my parents and retain an attorney, that I had too good of a claim to
waste time splitting hairs with the judge about Amodeo.
Once more Judge Mendoza relied on a fact (Amodeo's multiple filings) that
neither party raised, hence must have come from outside the proceedings,
believe judge Mendoza s bias against me kept him from, promptly informing
me that Mr. Amodeo's actions were illegal and that Mr. Amodeo had made a series
of filings.

IV. I was unaware that Amodeo and Sadaka cooperated in producing the affidavits
for my counseled Rule 33 motion.
Judge Mendoza surmises "the current Motion relies on the same affidavits
first filed by Amodeo plus one additional Affidavit." (Id. at 2). I was unaware
that my new attorney, Thomas Sadaka, relied only upon the typewritten affidavits
that had been stricken.
Mr.

Sadaka and my parents hired a private investigator to confirm the

affiants

statements. And the United States Attorney's Office sent their own

investigators to interview each witness. Those investigators located the "one
additional Affidavit." I understood that Mr. Sadaka relied upon his investigator
and the USAO's investigators in preparing the Rule 33 motion.

4

Judge Mendoza's independent investigation must have provided the evidence
that Mr. Sadaka chose to rely on Mr. Amodeo rather than his and the government's
investigators. I believe Judge Mendoza's prejudice caused him to engage in this
extrajudicial search which resulted in his decision to deny my motion because of
facts, which were not asserted by neither myself of the government, i.e. that
Mr. Amodeo and Mr. Sadaka were producing affidavits.

V. Judge Mendoza learned information about AmOdeo from a source outside the
record.
Judge Mendoza discredits my counseled-Rule 33 motion because he associates
it with Mr. Amodeo, who he labels a serial filer. (Id. at 6). I did not know Mr.
Amodeo was considered a serial filer.

I understood serial filers submitted

frivolous or harassing pleadings over and over again. But the Middle District of
Florida refers inmates to consult with other inmates.
prison regularly

refers

inmates

to Mr. Amodeo,

(Exhibit "1"). And the

and he appears to have an

exceptional track record-----at last count 721 sentence reductions,
saved;

128

§

2255 grants;

148 reversals,

remands,

1933 years

reconsiderations,

or COA

grants; 2 certioraris, and 8 solicitor-general responses.
If Judge Mendoza knew this was not true, then he must have learned it from
some extrajudicial source, which has not been identified. I am not sure why this
is important to my case though. Mr. Amodeo had nothing to do with Capital Blu. I
never knew of him until I got to prison. Plus, during the prosecution, I had
attorneys.

Obviously,

Judge

Mendoza

knows

"something" fueled his prejudice against me.

5

something

I

do

not

and

that

VI. Judge Mendoza's hatred of Amodeo makes his prejudice against me worse.
Also, I

feel he hates Mr. Amodeo and that hate has been amplified his

prejudice against me, why else would he speak more (on 6 of 9 pages) about Mr.
Amodeo in the Rule 33 order. Why else would he order Magistrate Irick to strike
any pleadings that has Frank Amodeo's name on it, not his signature just his
name. (Crim. Doc. 337 at 2).
This is very concerning to me since, according to Mr. Amodeo, Mr. Amodeo
has never seen, let alone communicated, with Judge Mendoza. Yet, Judge Mendoza
hates him more than anything, and because he cannot get Mr. Amodeo, he takes the
hatred out on me.
VII. Judge Mendoza learned that Correa, Easter, Colaprete, and Grocoff were
related, yet the affiants and the government considered them independent.
Judge Mendoza based his Rule 33 order on his knowledge that "four convicted
felons, who, as noted [], were not independent or unrelated • • • • " (Id. at 7). As
far as I knew, no more than two of the affiants had ever talked to each other,
or

spoke with Thiago

Correa.

In

addition,

the government stated that the

affiants were "complete strangers."
Where Judge Mendoza learned that the affiants were not unrelated, I cannot
figure out. Significantly, even the affiants who happened to have met say they
did not discuss with each other anything about Mr. Bromfield or Mr. Davis.
VIII. Judge Mendoza discovered
eyewitness affidavits.

that

Amodeo

coordinated

and

collected

the

Judge Mendoza states, "[t]his attempt by a jailhouse lawyer to gather and
coordinate affidavits from inmates in order to help another inmate, is, to say
the least, suspect." (Crim. Doc. 275 at 9).
First, no one considers Mr. Amodeo a jailhouse lawyer:

6

staff, inmates,

courts, and the government consider him an attorney, albeit an unlicensed one,
and a bit crazy, but a lawyer nonetheless. If he is merely a jailhouse lawyer
then that is information that was not available to me or the government, and
certainly not part of these proceedings.
Second, and more importantly, I was unaware that Mr. Amodeo ever gathered
anything from or about the affiants. I understand he briefly spoke to the three
affiants at Coleman

(Low)

in order to confirm that each had submitted an

affidavit. Mr. Amodeo never saw, spoke, or communicated with Mr. Correa.
I did not know Mr. Amodeo did anything more than have these limited
conversations. The government never claimed Mr. Amodeo did any "gathering" or
coordinating.

But Judge Mendoza, inspired by his prejudice for me and hatred

for Mr. Amodeo, must have conducted a separate investigation and learned of Mr.
Amodeo's activities.
Respectfully submitted by Donovan Davis, Jr. on this )) June, 2020:

Dj&hovan Daviis£<jr.
Reg. No. 60 439-018
Federal Correctional Complex (Low)
P.0. Box 1031
Unit B-3
Coleman, FL
33521
VERIFICATION
Under penalty of perjury as authorized in 28 U.S.C. § 1746, I declare that
the factual allegations and factual statements contained in this document are
true and correct to the best of my knowledge.

DtfKoVan Davi^'Jr.

7

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
Donovan Davis, Jr.,
Movant,
v.

Case No

United States of America,
Respondent.

CERTIFICATE OF GOOD FAITH
I, Brian D. Horwitz, Esq., the undersigned, am a member in good standing of both the
Florida Bar Association and the United States District Court for the Middle District of Florida.
I served as direct appeals counsel for Movant in two of his consolidated appeals. In
anticipation of Mr. Davis filing a motion to vacate his criminal conviction (28 U.S.C. § 2255)
and simultaneously seeking the disqualification of the Honorable United States District Court
Judge Carlos E. Mendoza from presiding over that action (28 U.S.C. §§ 144, 455), Mr. Davis
engaged me to examine his §144 application for recusal and his supporting affidavit.
I have examined each document and spoken with Mr. Davis concerning both at length,
and I can certify that Mr. Davis sincerely and in good faith believes that Judge Mendoza has a
personal prejudice and actual bias against Mr. Davis.
Further, I have examined each paragraph of the recusal application and each section of
the affidavit I find the documents are accurate and presented in good faith.
In making this determination, I examined each of Mr. Davis’ statements and compared
diem to the identified record references or supporting documents. The statements accurately

reflect the evidentiaiy references. For ease of review, I have asked Mr. Davis to include the key
portions of the evidentiaiy record in an appendix filed with his application and affidavit.
As an additional measure of certainty, in reviewing Mr. Davis’ statements, I ensured not
only that the record supported his proposition, but also that the inferences drawn therefrom were
reasonable given the context from which they arose, as well as the literal record upon which they
were predicated.
In sum, I have spoken with Mr. Davis oh several occasions regarding his concerns that
Judge Mendoza supported several of his rulings on facts that were either unknown to Mr. Davis
or which Mr. Davis could not find within the record. Nevertheless, I informed Mr. Davis that
given the appellate court’s decisions, he and anyone must presume Judge Mendoza’s factual
conclusions are hue, and that they have evidentiary support, even if that source is other than
apparent from the record.
Finally, Mr. Davis expresses concerns with respect to Judge Mendoza’s extrajudicial
prejudgment of persons who are in the same class as Mr. Davis, which concerns appear to have
record support.
I, Brian Horwitz, in good faith certify Mr. Davis makes his application for § 144 recusal
in good faith and supports that application with a good faith affidavit.
Respectfully submitted by Brian Horwitz on this 16th day of June, 2020.

Brian D. Horwitz, Esq.

Vatic Law, LLC
3236 Lake George Cove Drive
Orlando, Florida 32812
(407) 373-9690
bhorwitz@vaticlaw.com

APPENDIX "E"

Case: 20-12986

Date Filed: 08/10/2020

Page: 1 of 11

No.

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

IN RE DONOVAN DAVIS, JR.
Petitioner

PETITION FOR WRIT OF MANDAMUS TO THE UNITED STATES
WITH APPENDIX IN SUPPORT
DISTRICT COURT FOR THE MIDDLE DISTRICT OF FLORIDA
Related to
District Court Case No. 6:20-cv-1037-Orl-41DCI

Brian David Horwitz, Esq.
Vatic Law, LLC
5019 Saint Denis Ct.
Belle Isle, FL 32812
(A(\n\ 'in'i o£on
bhorwitz@vaticlaw. com
Attorney for Petitioner
Dated August 10, 2020

1

Case: 20-12986

Date Filed: 08/10/2020

Page: 2 of 11

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT
Donovan Davis, Jr.

Petitioner

Roger B. Handberg

AUSA

Honorable Judge Daniel C. Irick

Magistrate Judge

Honorable Judge Carlos E. Mendoza
Judge

District Court

Brian D. Horwitz, Esq.

Attorney for Davis

No publicly traded company or corporation has an interest in the outcome of this
appeal.

2

Case: 20-12986

Date Filed: 08/10/2020

Page: 3 of 11

Reiief Sought
Donovan G. Davis, Jr. requests that this court issue a writ of mandamus
ordering The Honorable Carlos E. Mendoza to comply with 28 U.S.C. § 144.
Relevant Background
In 2015, the United States indicted, tried, and convicted Donovan G. Davis,
Jr., of various fraud related crimes. In June of 2020, Mr. Davis sought to vacate the
criminal conviction under 28 U.S.C. § 2255. Davis v. United States, No. 6:20-cv1037-Orl-41DCI, Doc. 1 (M.D. Fla. 2020). In Mr. Davis's § 2255 proceeding, he
sought the recusal of Judge Mendoza under 28 U.S.C. § 144. ((Id. at Doc. 2 § 144
Application) (Attachment "1", Doc. 3 § 144 Affidavit) (Attachment "2", Doc. 4
(Certificate of Counsel)) (Attachment "3"))'. The bases for the disqualification
application were that in the earlier stages of the criminal prosecution: (1) Judge
Mendoza expressed a bias against an entire class of defendants; and (2) Judge
Mendoza willingly relied upon extrajudicial sources when making factual findings.

1 Citations in the form of "(Doc. #)" or (Docs. #)" refers to the docket entries in Davis, No. 6:20cv-1037-Orl-41DCI.

3

Case: 20-12986

Date Filed: 08/10/2020

Page: 4 of 11

I. Issues Presented
Judge Mendoza refused to comply with 28 U.S.C. § 144 by not allowing a
different judge to decide whether the statute required Judge Mendoza's
disqualification.2 (Doc. 8) (Order denying §144 Application) (Attachment "4").
The law entitles Mr. Davis's §144 application be reviewed by an
independent judge. 28 U.S.C. § 144 ("such judge shall proceed no further therein,
but another judge shall be assigned to hear such proceeding"). As explained
below, this Circuit's precedent permits Mr. Davis to enforce that entitlement
through a writ of mandamus.
II. Governing Standards
On mandamus review, 28 U.S.C. § 1651(a), the appellate court may reverse
the district court's decision only if the district court clearly abused its discretion.3
In re Ricoh Corp., 870 F.2d 570, 573 (11th Cir. 1989); Jackson v. Motel 6
Multipurposes, Inc., 130 F.3d 999, 1003 (11th Cir. 1997) (The district court's
"communications order was an abuse of discretion... We therefore grant the writ

2 Mr. Davis questions the procedure Judge Mendoza followed, if any, in passing upon the legal
sufficiency of the affidavit because Judge Mendoza apparently used the 28 U.S.C. § 455 legal
standard. (Doc. 8 at 2). It is also worth noting, Judge Mendoza cites to 28 U.S.C. §141
throughout the order. Id. Not once did Judge Mendoza mention 28 U.S.C. § 144 in the order
denying the § 144 application.
3 M
A district court abuses its discretion if it applies an incorrect legal standard, applies the law in
an unreasonable or incorrect manner, follows improper procedures in making a determination, or
makes findings of fact that are dearly erroneous. "Matthews v. State Farm Fire and Casualty
Company, 2020 U.S. App. LEXIS 17294 at *10, n.4 (11th Cir. June 2, 2020)(quoting F.T.C. v.
Nat'l Urological Grp., Inc., 784 F.3d 477, 481 (11th Cir. 2015) (quotation marks omitted)).
4

Case: 20-12986

Date Filed: 08/10/2020

Page: 5 of 11

[of mandamus]...:"). In sum, the clear abuse of discretion allows for a writ of
mandamus.
Of course, mandamus is an extraordinary remedy that may only lie when no
other remedy is available and the petitioner's entitlement to the relief is nearly
undeniable. In re United States, 985 F.2d 510, 511 (11th Cir. 1993). And in order
for a writ of mandamus to issue the writ seeker must:
1. Show no adequate remedy exists at law or otherwise, Motel 6, 130 F.3d at 1004;
and
2. Demonstrate that the petitioner's cause must be clear and indisputable. In re
BellSouth Corp., 334 F.3d 941, 966 (11th Cir. 2003).
a. Mandamus is Appropriate
This circuit holds that a recusal order may be challenged on direct appeal,
see Christo v. Padgett, 223 F.3d 1324 (11th Cir. 2000), but also expressly
concludes (as do a majority of the circuits) that a district judge's refusal to recuse
permits an aggrieved individual to seek relief through a writ of mandamus. United
States v. Patti, 337 F.3d 1317, 1322-23 (11th Cir. 2003) ("Patti immediately could
have petitioned this Court [11th Cir.] for a writ of mandamus...."). See, e.g., In re
Nettles, 394 F.3d 1001 (7th Cir. 2004) (granting mandamus prior to final order);
Clemens v. U.S. District Court for Central Dist. of Calif, 428 F.3d 1175, 1179-80
(9th Cir. 2005) (denying mandamus but on the lack of merit in the request for
recusal).

5

Case: 20-12986

Date Filed: 08/10/2020

Page: 6 of 11

Given these circumstances, this court’s governing authority empowers it to
hear this mandamus petition.
b. Abuse of Discretion in the Context of Recusal
This circuit also holds that when a judge abuses his discretion, particularly
with regards to whether a recusal is appropriate, then mandamus serves as the
preferred remedy. A judge abuses his or her discretion when the judge's remarks in
a judicial context "stem from extrajudicial sources." Thomas v. Tenneco Packaging
Co., 293 F.3d 1306, 1329 (11th Cir. 2002) (quoting Hamm v. Board of Regents,
708 F.2d 647, 651 (11th Cir. 1983)).
c. Legal Sufficiency
Throughout the circuits, "[although the authorities are not uniform, a
substantial body of law supports the proposition that mandamus to a United States
Court of Appeals will lie when a district judge has rejected affidavits seeking his
recusal as 'legally insufficient.'" Pfizer, Inc. v. Lord, 456 F.2d 532, 536 (8th Cir.
1972).
III. Facts Supporting Issues Presented
Mr. Davis's § 144 application and § 144 affidavit alleged that Judge
Mendoza expressed a class bias and relied upon extrajudicial sources to decide
controversies. (Docs. 2, 3). Judge Mendoza failed, under 28 U.S.C. § 144, to

6

Case: 20-12986

Date Filed: 08/10/2020

Page: 7 of 11

recuse in order to aiiow a different judge to review Mr. Davis's § 144 application.
(Doc. 8); (Doc. 10) (Order denying motion for reconsideration) (Attachment "5").
Significantly, at this stage of the § 144 proceedings (as well as in the § 2255
proceedings), Mr. Davis's allegations are presumed true. Berger v. United States,
255 U.S. 22, 35-36 (1921); see also United States v. Ala, 828 F.2d 1532, 1540
(11th Cir. 1987) (”[T]he trial judge may not pass upon the truthfulness of the facts
stated in the affidavit even when the court knows these allegations to be false.").
The law required Judge Mendoza to transfer the § 144 application to be reviewed
by a different judge. His refusal to transfer the disqualification application
constitutes an abuse of discretion. Therefore, this Court may remedy through
mandamus.
As alleged in Mr. Davis's § 144 application, Judge Mendoza stated that
individuals of Mr. Davis' generation typically lack integrity and work ethic—a
clear' indication of inherent prejudice. (Doc. 2 at 1, n.l). In addition, Mr. Davis'
application alleged that Judge Mendoza relied upon extrajudicial sources of
information when making factual findings, a judicial act demonstrative of bias.
(Doc. 3).
a. Judge Mendoza’s Personal Bias
Judge Mendoza's rulings reveal that his bias arose from extrajudicial sources
because the record provides no factual support for his findings. Judge Mendoza's

7

Case: 20-12986

Date Filed: 08/10/2020

Page: 8 of 11

statements include: "typical in your generation" and "going to the top floor
immediately without any work," (Doc. 2 at 1, n.l). The record contains no
evidence that Mr. Davis, a high school graduate and former ditch digger, had any
such traits. Further, the record contains no evidence that Mr. Davis's entire
generation has those attitudes and behaviors (and, indeed, the record could not
contain evidence supportive of this clear generational bias). Judge Mendoza’s
comments indicate that he possesses an innate class and age bias. Alternatively, the
absence of any record support implies that the ruling is founded on the premise of
extrajudicial information. Under either scenario, not only does the law, minimally,
require Judge Mendoza to transfer Mr. Davis's § 144 recusal application to a
different judge, it ultimately necessitates Judge Mendoza's recusal.
b. Judge Mendoza's Reliance on Extrajudicial Sources
Another example of Judge Mendoza's use of extrajudicial sources is evident
in the order denying Mr. Davis's Rule 33 motion, wherein Judge Mendoza states
that Frank L. Amodeo assisted in the creation of four eyewitness affidavits. United
States v. Davis, No. 6:14-cr-43-CEM-DCI, Doc. 275 (M.D. Fla. 2016) (Order
denying counseled Rule 33) (Attachment "6"). The record provides no evidence
that Mr. Amodeo had any involvement with the formation of the affidavits and
their content. To the contrary, the record shows that Mr. Amodeo had no
involvement with the affiants or affidavits, or is otherwise silent concerning their

8

Case: 20-12986

Date Filed: 08/10/2020

Page: 9 of 11

formation. Davis, No. 6:14-cr-CEM-DCI at Docs. 236-3, 236-6, 236-8, 236-9
(Eyewitness Affidavits) (Attachment "7"). Accordingly, Judge Mendoza used
extrajudicial information to find, contrary to the entire record, that Mr. Amodeo
had manufactured the affidavits (and that unsupported factual finding served as a
significant basis for Judge Mendoza's final decision).
The law presumes that Judge Mendoza's prior findings were correct. That
presumption is addressed in Mr. Davis's verified §144 application and affidavit.4
r'1

(Doc. 2, 3). Hence, for purposes of the recusal proceeding, Judge Mendoza's
conclusions about Mr. Amodeo manufacturing the eyewitness affidavits are
presumed to be correct. The argument Mr. Davis was and is making, however, is
that Judge Mendoza reached outside the record and/or relied on his personal biases
to make his findings.
Stated otherwise, because the record contains nothing to support Judge
Mendoza's findings, for Judge Mendoza to be correct, Judge Mendoza had to have
relied upon substantial extrajudicial evidence to overcome the record. Judge

4 Notably, in In re Corrugated Container Antitrust Litig., the defendants challenged the rulings of
the district court judge, hut not that the judge's rulings were based on evidence outside the
record. 614 F.2d 958, 964-65 (5th Cir. 1980).
Here, Mr. Davis does not challenge Judge Mendoza's rulings in the order denying Mr. Davis's
Rule 33 motion (Davis, No. 6:14-cr-43-CEM-DCI at Doc. 275)—as the law presumes Judge
Mendoza's findings correct. Mr. Davis contends that Judge Mendoza's findings were reached by
use of extrajudicial sources.

9

Case: 20-12986

Date Filed: 08/10/2020

Page: 10 of 11

Mendoza's willingness to use extrajudicial information violates controlling
authority and evinces partiality. The law requires recusal.
IV. Reasons for Granting the Writ
Judge Mendoza's remarks and findings stem from extrajudicial sources.
Judge Mendoza abused his discretion by failing to recuse. Section 144 imposes on
the district court stringent presumptions in favor of recusal. Judge Mendoza did not
apply those statutory presumptions in favor of recusal. He did not apply those
statutory presumptions in deciding Mr. Davis's recusal application. Instead, Judge
Mendoza denied Mr. Davis's right to have his § 144 application reviewed by a
different district court judge, who not only would be impartial, but also would
/ appear impartial.
Further, Judge Mendoza's repeated reliance on extrajudicial facts and refusal
to presume Mr. Davis's allegations as true creates a belief in either a reasonable
jurist (or a fully-informed, objective layperson) that Judge Mendoza has a bias.
Judge Mendoza's refusal to follow the law and transfer the recusal action to an
untainted judge only served to magnify the appearance of bias and impropriety.
CONCLUSION
This Court should grant the writ of mandamus, and order Judge Mendoza to
transfer the recusal application to a different judge.
s/Brian D. Horwitz
Brian D. Horwitz, Esq.
10

Case: 20-12986

Date Filed: 08/10/2020

Page: 11 of 11

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on August 10, 2020, a true and correct copy of
the foregoing was filed via CM/ECF providing notice to all counsel of record.

s/ Brian D. Horwitz
Brian D. Horwitz, Esq.

11

